                                     CLOSEOUT OF M95030008
        On March 3, 1995, OIG received a memorandum fiom the program director1 that provided
information that he had received from the complainant.* The complainant alleged that the subject3,had
breached the confidentiality of peer review when he revealed to the complainant information fiom the
Research Initiation Awards (RIA) panel discussion that had occurred on March 15, 1994. The subject
allegedly informed the complainant that he "took pride" in blocking a proposal fiom being funded. The
NSF proposal4 supposedly discussed was submitted by the PI^, a faculty member in the same
department as the complainant.
        The NSF proposal and award system showed that the subject had been a panel reviewer and
discussion leader for the PI's declined RIA proposal. There are no other connections between the
subject and the PI.
        The PI's proposal was placed in the fknd-if-funds-available category; this was the consensus of
all panel members. The subject's summary of the PI's proposal had negative comments, but the subject
was equally negative on other proposals in this category. The Panel Minutes indicate that all panelists
signed all of the proposal summaries, excluding reviewers with conflicts of interest.
        OIG spoke with the complainant who said he did not remember any conversations related to
this matter nor could he recall anyone ever revealing information about what was discussed in a panel
review. He also believes that the decision to decline funding of a proposal was the result of many
people and not just one person.
         The subject's summaries of the proposals, perhaps somewhat more negative than customary,
was uniform. Because of the complainant's disavowal, there is no evidence to support the allegation
that a breach of the confidentiality of peer review occurred.
        This inquiry is closed and no further action will be taken in this case.


cc: StaE Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




    ' (footnote redacted).
     (footnote redacted).
     (footnote redacted).
     (footnote redacted).
     (footnote redacted).
                                               Page 1 of 1
